LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 23, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

JOHN KRAKOWSKI, ET AL. V. ALLIED PILOTS ASSOCIATION, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on August 23, 2021,
I caused service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020,
on the following counsel for the Respondents:
RESPONDENT ALLIED PILOTS
ASSOCIATION:
Steven K. Hoffman
Daniel M. Rosenthal
JAMES & HOFFMAN, P.C.
1130 Connecticut Avenue, NW
Suite 950
Washington, DC 20036
(202) 496-0500
skhoffman@jamhoff.com
dmrosenthal@jamhoff.com

RESPONDENT AMERICAN
AIRLINES, INC.:
Mark W. Robertson
Sloane Ackerman
O’MELVENY & MYERS LLP
Times Square Tower
7 Times Square
New York, New York 10036
Telephone: (212) 326-2000
mrobertson@omm.com
sackerman@omm.com
Robert A. Siegel
O’MELVENY & MYERS LLP
400 South Hope Street
Los Angeles, California 90071
Telephone: (213) 430-6000
rsiegel@omm.com

This service was effected by depositing one copy of a Petition for a Writ of Certiorari in
an official “first class mail” receptacle of the United States Post Office as well as by
transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 23rd day of August 2021.

